<html>
<title> - KEEPING THE NATION SAFE THROUGH THE PRESIDENTIAL TRANSITION</title>
<body><pre>[Senate Hearing 110-852]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-852

      KEEPING THE NATION SAFE THROUGH THE PRESIDENTIAL TRANSITION

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs








                  U.S. GOVERNMENT PRINTING OFFICE
45-577                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
                        Lisa M. Powell, Counsel
                Evan W. Cash, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                    Jessica K. Nagasako, Chief Clerk


















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                               WITNESSES
                      Thursday, September 18, 2008

Elaine Duke, Under Secretary for Management, U.S. Department of 
  Homeland Security..............................................     6
Frank Chellino, Chairman, National Academy of Public 
  Administration.................................................     7
Patricia McGinnis, President and Chief Executive Officer, Council 
  for Excellence in Government...................................    10
John Rollins, Specialist in Terrorism and National Security, 
  Congressional Research Service.................................    12

                     Alphabetical List of Witnesses

Chellino, Frank:
    Testimony....................................................     7
    Prepared statement...........................................    33
Duke, Elaine:
    Testimony....................................................     6
    Prepared statement...........................................    29
McGinnis, Patricia:
    Testimony....................................................    10
    Prepared statement with an attachment........................    38
Rollins, John:
    Testimony....................................................    12
    Prepared statement...........................................    49

                                APPENDIX

Questions and Responses for the Record from:
    Ms. Duke.....................................................    53
    Mr. Chellino.................................................    66
    Mr. Rollins..................................................    69
CRS Report for Congress, ``2008-2009 Presidential Transition: 
  National Security Considerations and Options,'' April 21, 2008, 
  John Rollins, Specialist in Terrorism and National Security 
  Foreign Affairs, Defense, and Trade Division...................    70
A Report by a Panel of the National Academy of Public 
  Administration, June 2008, ``Addressing the 2009 Presidential 
  Transition at the Department of Homeland Security''............   122
Background.......................................................   248

 
      KEEPING THE NATION SAFE THROUGH THE PRESIDENTIAL TRANSITION

                              ----------                              


                      THURSDAY, SEPTEMBER 18, 2008

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:05 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order.
    Today's hearing, ``Keeping the Nation Safe Through the 
Presidential Transition,'' will examine planning for homeland 
security risks associated with the upcoming Presidential 
transition, the first since the attacks of September 11.
    Because history suggests that there is an increased risk of 
attack in the time shortly before and after governmental 
transitions, it is critical that the Department of Homeland 
Security (DHS) function smoothly through the transition. I want 
to commend DHS officials for the seriousness with which they 
are planning for the upcoming transition. The Department has 
invested considerable time and energy in transition planning.
    But DHS starts at a disadvantage in transition planning. 
Just created in 2003, it is now the third largest cabinet 
department. The Department has been on the Government 
Accountability Office's high-risk list since it was created. It 
has faced many tests in its short history, and it has not 
always handled them well. Even without the transition, I 
believe that DHS presents the most serious management challenge 
in the Federal Government today.
    Substantial gaps in DHS leadership will make it difficult 
for DHS to ensure leadership through the transition. According 
to the National Academy of Public Administration's June 2008 
report, 18 percent of executive positions, nearly one out of 
every five top positions, are vacant. Half of the executive 
positions at the National Protection and Programs Directorate 
are vacant. Forty percent of executive positions in the Office 
of General Counsel are vacant. And perhaps most troubling, one-
fourth of the executive positions at the Federal Emergency 
Management Agency are vacant.
    High vacancy rates will compound the burden placed on top 
officials when appointees leave. I know that DHS is working to 
address this situation, but time is running out.
    Many of the career employees called on to juggle multiple 
roles during the transition have been in their current 
positions only a short time. DHS has had the highest career 
executive turnover rate of any cabinet department over the last 
several years. More than half of the current career executives 
have been in their positions for less than 2 years. Low morale 
and high turnover have plagued DHS since its creation. This is 
a serious management problem and now a serious transition 
concern and it must be given urgent attention.
    I am pleased that the Department increasingly has placed 
career employees in positions of high authority. Most 
components have a career employee in the deputy position who 
will be able to fill the shoes of the departing political 
appointee during the transition. The Department has identified 
the career employees who will take the positions of other 
critical appointees until their replacements start, as well.
    The Department's core management functions should be 
undertaken without respect to politics or ideology. That is why 
I joined with my good friend, Senator Voinovich, on a bill, S. 
2816, to allow the DHS Human Capital Officer to be a career 
civil servant, as well as on the Effective Homeland Security 
Management Act, which is S. 547, which would convert the Under 
Secretary for Management into a deputy position with a term 
appointment. These bills would improve continuity during 
Presidential transitions and would promote better management.
    Ms. Duke, as I said during your confirmation hearing, I am 
pleased that you are willing to continue serving at DHS through 
the Presidential transition. I hope that the next President 
considers keeping you in your position until your successor is 
confirmed. Your extensive management experience would be 
valuable during the challenging transition time, and your many 
years in the civil service would give you the credibility to 
help bridge the gap between the outcoming Administration and 
the new one.
    Turning now to the new leadership that will come on board 
after the inauguration, the new Administration's national and 
Homeland Security appointees must be nominated and confirmed 
more quickly than has happened in the past. This was a 
recommendation of the 9/11 Commission, which observed that many 
of President Bush's critical appointees were not confirmed 
until the summer of 2001 or later. Indeed, no Administration 
has had more than 60 percent of its cabinet and sub-cabinet 
appointees confirmed by August of its first year. Speeding this 
process will require the commitment of the incoming 
Administration, the current Administration, and the Senate.
    The new President will need to identify, vet, and choose 
his nominees very quickly, which will require a clear 
understanding of current homeland security problems and the 
incoming President's priorities in addressing them. There are 
only 11 weeks between the election and inauguration day. Both 
candidates' teams should be working hard now to choose their 
potential transition team and key nominees.
    The Intelligence Reform and Terrorism Prevention Act of 
2004, implementing a 9/11 Commission recommendation, allows the 
Presidential candidates to submit requests for security 
clearances for their prospective transition team before the 
election and allows the President-elect to submit requests for 
other nominees right after the election. I hope the candidates 
will take advantage of that change.
    Senator Voinovich and I have worked for years to reform and 
modernize the security clearance process. Some progress has 
been made in speeding the process and reciprocity of 
clearances, but it still remains too slow and too paper-
intensive throughout the government.
    Finally, the Senate must speed the confirmation process. 
The post-election period will be a time of transition for the 
Senate as well as the Executive Branch, with new Members 
elected and changes in Committee membership. It will take 
planning, focus, and dedication to ensure that the confirmation 
process is thorough, fair, and fast.
    I want to thank Senator Voinovich again for his work on 
this issue. We are both firmly committed, whichever party will 
occupy the White House next year, to ensuring that the 
transition goes smoothly. As I stated last week at this 
Subcommittee's hearing on general government transition 
planning, even as the Senate legislative session winds up, this 
Subcommittee will continue working to see that Congress, the 
current Administration, and the next Administration do all that 
we can do to keep the Nation safe through the transition.
    I know that DHS takes this issue very seriously, as well. I 
look forward to hearing more about DHS's challenges and 
progress in preparing for the transition. I want to thank our 
witnesses for being here today to discuss this critical issue.
    I now turn to my friend, Senator Voinovich, for any opening 
statement that he would like to make at this time. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Mr. Chairman. One of the joys 
of being on this Subcommittee is the wonderful relationship 
that I have with our Chairman, Chairman Akaka. It is unusual 
that an agenda continues over a 7- or 8-year period. Ms. 
McGinnis, you know how long we have worked on this together, 
and I think that you should be assured that we are going to 
continue this effort, as Senator Akaka says, to stay on top of 
these issues and do the oversight that is necessary as we move 
along.
    I really believe this is one of the most important hearings 
that we are going to have in this Congress. Our Subcommittee 
met last week to consider the overall challenges the Federal 
Government faces as it prepares for the Presidential 
transition, and today we are looking at the Department of 
Homeland Security it challenges.
    I will say, Ms. Duke, that when Secretary Chertoff was in 
Cleveland, I did compliment him on the fact that, according to 
everybody that I have talked to, the Department's transition 
plan is a very good plan. The real issue is do you have the 
wherewithal in order to implement that plan?
    I think everyone in the country needs to be cognizant of 
the fact that there may be a heightened risk of a terrorist 
attack for the next several months. I make this statement based 
on history. The U.S.S. Cole was bombed 1 month before our 2000 
election and the 9/11 attacks occurred 8 months after our 2000 
election.
    We are not the only country that is at risk during 
transition. In 2003, explosives were detonated on a train in 
Russia 2 days before their national elections. Similarly, bombs 
were set off on trains in Spain 3 days before its 2004 
elections. And last year in the United Kingdom, there were 
bombing attempts within days of the appointment of the new 
Prime Minister.
    The 9/11 Commission has noted that this is a very crucial 
time in terms of some of the dangers that we are subjected to.
    As I said, I believe that we are preparing for the 
transition and I complimented Mr. Johnson last week, and said 
that I was appreciative of the fact that he and Secretary 
Chertoff were both trying to make sure that we don't drop the 
baton during this period like our Olympic runners did, which we 
were all unhappy about, but they did compensate later on for 
that.
    We are here today to hear from DHS and the National Academy 
of Public Administration about how DHS, with the Council for 
Excellence in Government, is preparing for the transition. I 
worked with NAPA when I was mayor, so I know the good work that 
they do and look forward to hearing from them today.
    Today, we also have an opportunity to discuss what more can 
be done by DHS, Congress, and the next Administration to 
solidify the transition actions DHS has already taken. I am 
anxious to discuss several areas where I think we can build on 
the good work that has already been done.
    First, many transition reports suggest the need to provide 
security clearances for new officials in a timely manner, and I 
agree. In fact, the Chairman and I have been working to bring a 
performance-based approach to how the government manages access 
to sensitive national security information since 2004, and we 
are waiting for a report before this Administration leaves on 
how they are going to really streamline that process.
    Second, I am interested in exploring how DHS human capital 
challenges could negatively impact the transition, and Senator 
Akaka has made reference to those already. The NAPA report 
notes that a large number of vacancies is a major gap in the 
DHS career leadership structure, and again, I am not going to 
go into the details, but 139 of the Department's executive 
positions were vacant on March 20, 2008. That is about 20 
percent of its leadership positions, and I am concerned about 
that. A number of transition studies note that career 
executives must provide stability during transitions, so we 
must make sure that DHS has the necessary authority to hire the 
employees it needs.
    Mr. Chairman, you and I have worked to provide agencies the 
tools that they need to hire the right people for the right job 
at the right time in the right place, and I hope, Ms. Duke, 
that these tools have been helpful to DHS, and I would like to 
say to you, thank you very much for stepping up as a career 
employee to take on management responsibility. Thank you very 
much for doing it.
    FEMA executives must also have the qualifications necessary 
to manage emergencies and disasters, and I do not think that 
non-career executives should fill 34 percent of FEMA's 
executive positions. That is something that Senator Akaka and I 
are going to have to work on.
    This afternoon, I also look forward to discussing how this 
Administration and the next, as well as Congress, can best 
reach out to the public regarding the transition, as NAPA and 
others recommend. I think we need to discuss possible risks to 
the Nation during the transition period, but also provide 
assurances that the government is preparing to address those 
risks and will leave no stone unturned in its efforts. We are 
going to make sure that everybody understands that. In other 
words, we are going to send a message that transitions bring 
risks, but we are alert and ready to address those risks.
    I also hope we can discuss how the Federal Government's 
transition preparations can and should be coordinated with 
State and local governments and the Presidential campaigns.
    I want to thank our witnesses for joining us today on this 
matter of critical importance to our country. I appreciate your 
time and look forward to hearing from each of you, and I want 
to especially thank Ms. McGinnis for all of the great work that 
you have done right from the beginning when we got started on 
the human capital challenge. I hope that you take great pride 
in the legislation that Senator Akaka and I have worked on over 
the years to try and make sure that we can recruit the best, 
retain them, and reward them. I must say, Senator Akaka, 
without the participation of the private sector, much of the 
great progress that I think we have made over the last 10-year 
period--would not have been possible. Thank you, thank you for 
all the work you and your organization have done to help us.
    Senator Akaka. Thank you, Senator Voinovich.
    Again, I want to welcome our witnesses today to this 
Subcommittee: Elaine Duke, who is Under Secretary for 
Management at the Department of Homeland Security; Frank 
Chellino, who chaired the panel of the National Academy of 
Public Administration that produced the report entitled, 
``Addressing the 2009 Presidential Transition at the Department 
of Homeland Security'' at the request of DHS and Congress;\1\ 
Patricia McGinnis, who is the President and Chief Executive 
Officer of the Council for Excellence in Government; and John 
Rollins, a specialist in terrorism and national security at the 
Congressional Research Service.
---------------------------------------------------------------------------
    \1\ The report submitted by Mr. Chellino appears in the Appendix on 
page 122.
---------------------------------------------------------------------------
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. I would ask all of you to please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Duke. I do.
    Mr. Chellino. I do.
    Ms. McGinnis. I do.
    Mr. Rollins. I do.
    Senator Akaka. Thank you. Let it be noted in the record 
that the witnesses answered in the affirmative.
    I want the witnesses to know that while your oral 
statements are limited to 5 minutes, your entire statements 
will be included in the record.
    Ms. Duke, will you please proceed with your statement.

 TESTIMONY OF ELAINE DUKE,\1\ UNDER SECRETARY FOR MANAGEMENT, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Duke. Thank you, Mr. Chairman and Ranking Member 
Voinovich. It is truly a pleasure to be here before you this 
afternoon and I want to thank you for giving me the opportunity 
to highlight the actions that the Department of Homeland 
Security is taking to ensure we are completely prepared before 
the election, through the inauguration, and beyond.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Duke appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    As was stated by the Members of the Subcommittee, 
historically, we know that terrorists perceive government 
transitions to be periods of increased vulnerability. Our 
employees and military members will continue their vital 
efforts to protect our country today, tomorrow, and throughout 
the transition without hesitation. However, we are taking this 
time to focus on and improve our day-to-day business operations 
as well as to maximize our readiness and incident response 
capabilities.
    The Department's transition efforts have garnered a great 
deal of attention and we have been busy ensuring a seamless 
transition will occur. We are reviewing and making changes to 
our internal processes. We are preparing briefing and 
confirmation materials for the incoming Administration. We are 
conducting training and exercises to ensure the current 
leadership is in place, is prepared for any threat. We are 
focused on change management and communicating our plans to 
employees, our partners in industry, and government partners on 
the International, Federal, State, and local level.
    We are also working with stakeholders and partners outside 
the Department in respect to security clearances, exercises, 
and interagency coordination. We are working with the members 
of this panel here to ensure that we keep the right focus both 
in planning and execution of our transition activities.
    Our transition efforts actually began in the spring of 
2007. By this time last year, we had begun identifying critical 
positions and senior career civil servants who will assume 
responsibility during the time of transition.
    In September 2007, Secretary Chertoff asked the Homeland 
Security Advisory Council to establish an Administrative 
Transition Task Force for recommendations to the Department on 
best practices. The Task Force made many good recommendations. 
Although some of the recommendations are not within the 
Department's authority to implement, we took the Task Force 
recommendations to heart and have incorporated them in our 
transition efforts. We have a cadre of transition officers who 
are working closely with my core transition team to evaluate 
internal processes, develop briefing materials, and implement 
an exercise plan.
    In November 2007, we joined Congress in requesting that the 
National Academy of Public Administration prepare an 
independent report of our transition planning efforts. The NAPA 
report made several important recommendations, most of which we 
have either implemented or will implement prior to transition. 
The report confirmed what we had suspected. Of our 22 component 
agencies and program offices, 14 have career civil servants in 
the No. 1 or No. 2 positions, while seven component agencies or 
programs have only career civil servants in senior leadership 
positions.
    We are providing improved processes to equip new appointees 
with the tools they will need as well as the information 
relationships required to be effective to do their jobs. To 
head this effort, we have appointed Coast Guard Rear Admiral 
John Acton, who is here with me today, to serve as our full-
time Transition Director.
    In December 2007, the Department focused on the efforts at 
an interagency level by engaging the Council on Excellence in 
Government (CEG). The emphasis is on the Department's homeland 
security training and intergovernmental relations and 
interactions with other Federal, State, and local governments. 
In concert with the Federal Emergency Management Agency, the 
Council is supporting our training and exercise program and our 
relationships and communication plans with especially our State 
and local government and first responders.
    Let me emphasize this. Because more than 99 percent of the 
Department's 216,000 employees are career civil services or 
Coast Guard members and not political appointees, I do believe 
the change in Administration will have little effect on our 
day-to-day front-line operations. Our employees will continue 
to seamlessly do their jobs as they do now, protecting the 
country every day.
    Having said that, though, we do understand the increased 
risk during this transition and have our efforts dedicated to 
preparing for it.
    I thank you for your leadership and continued support of 
the Department and its management programs. I look forward to 
working with you in shaping our future and the success of DHS 
with energy and enthusiasm. Again, I am honored to be here 
today and thank you.
    Senator Akaka. Thank you very much, Ms. Duke. Mr. Chellino.

 TESTIMONY OF FRANK CHELLINO,\1\ CHAIRMAN, NATIONAL ACADEMY OF 
                     PUBLIC ADMINISTRATION

    Mr. Chellino. Senator, thank you. First, I would like to 
ask that our report be entered into the record.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chellino appears in the Appendix 
on page 33.
    \2\ The report submitted by Mr. Chellino appears in the Appendix on 
page 122.
---------------------------------------------------------------------------
    Senator Akaka. Without objection, it will be included in 
the record.
    Mr. Chellino. And second, regarding my written comments, 
yesterday, we met with Admiral Acton and Dr. Tiffany Lightbourn 
from DHS. We had a very positive meeting with them about 
training and transition. As a result of that, we revised page 
four of my testimony. I think we submitted that to you earlier 
this morning, so there is a little revision in what we 
previously gave you.
    Senator Akaka. Thank you very much.
    Mr. Chellino. Mr. Chairman and Senator Voinovich, thank you 
for inviting the National Academy of Public Administration to 
testify at the Department of Homeland Security's preparation 
for the 2009 Presidential transition. I served as the panel 
chair for the Academy's 2008 report that assessed DHS's 
executive profile and its plan for the 2009 Presidential 
transition.
    The Presidential transition of 2009 is the first major 
transition since September 11, 2001, and the first for DHS, 
which was created in 2003. DHS not only built a new 
organization from the ground up, but has undertaken two major 
department-wide reorganizations and absorbed new and expanded 
responsibilities that were not part of its original charter. 
This continually changing environment, coupled with major 
ongoing operational responsibilities, has caused a continuous 
whitewater management environment at DHS. With the 2008 
Presidential election on the horizon, DHS leadership is about 
to turn over responsibility for managing this complex and 
challenging organization to a new team.
    As we pointed out in our report, recent history 
demonstrates that political transitions present an opportunity 
for terrorists to take advantage of real or perceived 
weaknesses in a Nation's ability to detect, deter, prevent, or 
respond to attacks. The final report of the 9/11 Commission 
raised concerns about the impact of future transitions on the 
government's ability to deal with terrorism.
    Due partly to the delayed resolution of the 2000 elections, 
the incoming Bush Administration did not have its deputy 
cabinet officials in place until Spring 2001, or its sub-
cabinet officials in place until that summer--historically, 
getting the Presidential team in position has been a slow 
process. The Commission strongly pushed for changes to the 
process so that the Nation is not left vulnerable to these 
types of delays in a post-September 11, 2001 world. During the 
transition, DHS must retain the ability to respond quickly to 
both manmade and natural disasters.
    In light of these issues, Congress and DHS asked the 
Academy to assess DHS's executive profile, study its transition 
training, and review its plans for the 2009 Presidential 
transition. Our June report was the result of that request.
    Regarding DHS's executive profile, the Academy assessed the 
appropriateness of the overall number of executives for DHS 
given its size and broad mission objectives, assessed the 
Department's allocation between career and non-career 
executives, compared the Department with similarly structured 
agencies' career and non-career executives, and identified gaps 
in the Department's career senior leadership, including risks 
associated with changing leadership during the Presidential 
transition.
    Although no entity has provided a formula or guidelines for 
the specific optimum number of executives or political 
appointees in an agency, the Academy concluded that the total 
number of DHS executives and the percentage of political 
appointees are well within the norms of other cabinet-level 
agencies. However, the Academy did recommend that DHS shift 
more executives to field locations in immigration and border 
management agencies and change non-career headquarters deputy 
officials, FEMA regional administrators, and other officials to 
career executives.
    In addition, the report identified gaps in DHS executive 
staffing, including high turnover, many vacant positions, and a 
lack of ethnic and gender diversity.
    Regarding transition training, the Academy assessed the 
adequacy of executive training programs as they relate to the 
transition and compared DHS training programs with those of 
similarly structured cabinet-level agencies. The Academy 
concluded that DHS's transition training and development 
efforts are consistent with the executive development programs 
in most Federal agencies and has a balanced set of transition-
specific training programs underway. If implemented, these 
should help executives prepare to meet their homeland security 
responsibilities during transition. DHS is well along in its 
transition training, especially given that it is a young agency 
with a critical national mission and going through its first 
Presidential transition.
    Last, the Academy reviewed DHS's transition planning and 
made 22 recommendations spread across a defined time line from 
prior to the national conventions in August to following 
inauguration day in January 2009. These specific 
recommendations are discussed in detail in the report.
    DHS has begun to address these 22 recommendations and has 
advised the Academy that they have substantially or partially 
completed 10 of the first 12 NAPA recommendations which were to 
be completed by September 4. Regarding Academy recommendations 
13 and 14, which were to be completed by November 4, DHS has 
advised the Academy that the White House has the responsibility 
for reaching out to Presidential transition teams to solicit 
names of potential political appointees. To our knowledge, this 
has not yet been implemented. However, DHS has geared up its 
internal security processes to meet the demands of the incoming 
executive selectees.
    DHS's actions are positive, but there remain important 
areas that must be addressed if the Department is to be 
completely prepared. To the greatest extent possible, incoming 
DHS leadership, including the Secretary and key staff, must be 
in place on inauguration day or shortly thereafter. This 
requires the support and cooperation of other Federal agencies 
with background check and clearance responsibilities as well as 
the Congress, given its confirmation role and responsibilities.
    Finally, the Academy noted that DHS has not fully achieved 
its intended mandate of providing an integrated and universal 
approach to homeland security. Much has been asked of DHS since 
2003. However, the Department's key seven components still 
largely operate as stand-alone entities. Important steps are 
being taken by DHS headquarters to improve coordination among 
the components. If the void in leadership during the transition 
results in components continuing to operate independently in 
areas that call for a more collaborative approach, DHS's 
operational efficiency and effectiveness will suffer and its 
stated objectives will remain out of reach.
    In addition, and compounding this lack of coordination is 
the 86 Congressional committees that oversee DHS. These 
multiple committees make it difficult to both align resources 
to strategy and pass authorizing legislation, but it also 
subjects the Department to policy disarray. These issues will 
provide a major challenge for the leadership team appointed by 
the next President.
    Mr. Chairman, that concludes my statement. Thank you for 
inviting the Academy and we will be happy to answer questions 
at the appropriate time.
    Senator Akaka. Thank you very much, Mr. Chellino. Ms. 
McGinnis.

    TESTIMONY OF PATRICIA McGINNIS,\1\ PRESIDENT AND CHIEF 
    EXECUTIVE OFFICER, COUNCIL FOR EXCELLENCE IN GOVERNMENT

    Ms. McGinnis. Thank you very much, Senator Akaka and 
Senator Voinovich. I am glad to see the continuity of 
leadership in this Subcommittee even as you switch chairs back 
and forth, so thank you very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. McGinnis with an attachment 
appears in the Appendix on page 38.
---------------------------------------------------------------------------
    I appreciate the opportunity to participate in this very 
timely discussion of keeping our Nation safe through the 
transition. The Council for Excellence in Government works to 
improve the performance of government and we have played a 
significant role in Presidential transitions. Both the Clinton 
and Bush Administrations called on us to help orient new 
appointees and offer leadership to the top appointed 
Presidential team and White House staff.
    In addition, we have worked intensely in the area of 
homeland security for the last several years, looking at it on 
an enterprise basis, not just working with the Department but 
working with State and local government, people on the front 
lines, the private sector, and even engaging the public, which 
is an important part of this enterprise, as well.
    We were asked last fall and we began an engagement with the 
Department of Homeland Security to play a role in their 
transition planning. Our job is to help ensure that the 
critical roles, responsibilities, and protocols for emergency 
response will be understood, executed, and coordinated 
seamlessly by leaders at the Department of Homeland Security in 
collaboration with others across the Federal Government with 
homeland security responsibilities, State and local government 
officials, and the appropriate private sector leaders.
    And this transition period is quite extended. It has 
already begun, as we are seeing appointees leave, and will 
continue through the election, through the inauguration, and 
for some weeks and months after that, we hope not too long 
before the appointees are in place to take over.
    We are focusing both on the acting career officials, or 
those who will be stepping up in acting positions based on the 
succession plan, and later on incoming appointees that have 
operational and staff support functions to the Secretary.
    To guide the work, we have established a small bipartisan 
panel, which is co-chaired by Admiral Jim Loy, who was the 
Deputy Secretary of the Department, Commandant of the Coast 
Guard, and New York City Police Commissioner Ray Kelly. We have 
given you a list of the members of the panel. They really do 
represent the homeland security enterprise throughout the 
country and have been very helpful.
    We have two main tasks. One, we are creating an inventory 
and visual mapping of the key roles, relationships, and 
responsibilities and protocols based on the National Response 
framework, the continuity of operations plans, and the other 
protocols. This is not easy because it is very complex, but it 
is a great way to see how it works, see who relates to whom and 
what the responsibilities are. So we want to offer that to the 
Department not only for transition, but for later on.
    The second task, as Ms. Duke said, is to design and deliver 
workshops for the career officials and then the appointed 
officials as they come in. There are three goals here.
    One is to make sure that they understand their roles and 
responsibilities and the protocols.
    Two, we want them to practice these roles. We think that 
exercises are critically important.
    And three, through that effort, we want to see 
relationships and camaraderie built among the team and 
including Federal, State, and local, and some private sector 
participants. As our friends on the front line often say, you 
don't want to be exchanging business cards in the middle of an 
emergency.
    We held the first scenario-based training workshop on 
Monday, September 15, for 50 senior career officials. It went 
very well and we know that as we go forward, we will be 
offering some of the same kinds of workshops, fundamentals and 
getting into scenarios. We are connecting these to the National 
Exercise Program exercises and we understand that the career 
people who are there now have more experience than the 
appointees coming in, for the most part, so we will have to 
adjust and focus on who our audience is.
    I would like to conclude by answering the questions you 
posed about the progress of the Department and the risk. We 
agree with you that the Department has made great progress. We 
commend the leadership of Elaine Duke, Paul Schneider, and 
others who are quite committed to assuring this smooth 
transition. We are particularly impressed with Admiral John 
Acton, who has been named as the coordinator of the transition 
and will be there as appointees leave and new appointees come 
in.
    We think there are two significant risks that we bring to 
your attention, and I think you are aware of them. One is in 
terms of training and exercising, the Department is doing a 
great job, the National Exercise Program, connecting with other 
departments, but we do see that the training and exercises 
across the Federal Government is not well coordinated. There 
are a lot of training and exercise programs that are not 
connected. As far as we know, there is no clearinghouse or 
repository for such training and exercise programs, and I think 
that this is work to be done, not only for the transition, but 
on an ongoing basis, to make sure that each department is 
taking advantage of what the other offers and working together.
    The second risk you mentioned, and that is the potentially 
lengthy gap between the inauguration of the next President and 
the confirmation of key appointed leaders. We think that the 
cabinet should be sworn in on inauguration day and it would be 
great to see other top officials, as well, but certainly days, 
not weeks and months after that, if possible. I know you 
understand the importance of that.
    What I would say is that you hit the nail on the head, both 
of you, in terms of the security clearance investigations, and 
given the state of the reengineering of that process, we would 
strongly recommend increasing the capacity, the investigative 
capacity, so that you can be moving people through more quickly 
by having a larger capacity.
    And then second, in terms of the Senate leadership and the 
confirmation, we would urge that commitments and changes in the 
process take place before the election, if possible, 
establishing time frames for considering and voting on 
nominees, maybe a different policy toward holds or other 
changes. If that can happen before the election and we have a 
winner and a loser, I think it will be most constructive.
    Thank you very much.
    Senator Akaka. Thank you very much, Ms. McGinnis. Mr. 
Rollins.

   TESTIMONY OF JOHN ROLLINS,\1\ SPECIALIST IN TERRORISM AND 
       NATIONAL SECURITY, CONGRESSIONAL RESEARCH SERVICE

    Mr. Rollins. Chairman Akaka, Ranking Member Voinovich, 
thank you for asking me to appear today to discuss the risks 
and challenges associated with the Presidential transition. As 
stated, my name is John Rollins. I am a specialist in terrorism 
and national security with the Congressional Research Service. 
I authored a report in April of this year entitled, ``2008-2009 
Presidential Transition National Security Considerations and 
Options,'' and I ask that that be placed in the record.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Rollins appears in the Appendix 
on page 49.
    \2\ The report submitted by Mr. Rollins appears in the Appendix on 
page 70.
---------------------------------------------------------------------------
    Senator Akaka. Without objection.
    Mr. Rollins. The nice thing about going last is many of the 
points I have to offer have been covered, so I will keep my 
comments brief.
    Before offering suggestions or ideas where Congress may 
assist current and future Presidential transition activities, I 
would like to offer a bit of context to the risks that we face. 
As previously stated, the Presidential transition currently 
underway will be the first one since September 11, 2001. In my 
report, and I believe this is similar in the NAPA report, I 
look at the transition period actually being from the time of 
the campaigning by Presidential candidates through the first 
year of the new Administration. That allows for time for 
confirmation of new appointees and for national and homeland 
security policy directives and procedures to be in place, with 
the assumption that some of those will change as they are 
currently sitting.
    As we have all discussed, history is replete with examples 
of attacks by terrorist groups to take advantage of the 
transfer of power. We have talked about the examples. I would 
refer to last July 2007, a national intelligence estimate to 
take a look at what they offered regarding possible 
Presidential transition risks. The non-classified version of 
the estimate offered the following points regarding al-Qaeda's 
capability over the next 3 years. So we are 1 year into that 3-
year period that the estimate spoke of.
    The estimate stated, al-Qaeda has regenerated key elements 
of its homeland security attack capability and the leadership 
continues to plan high-impact plots. Al-Qaeda will intensify 
its efforts to put operatives here in the United States. And 
last, maybe most importantly, al-Qaeda's homeland security 
plotting desires are likely to focus on prominent political, 
economic, and infrastructure targets. So here, I think we have 
the estimate of a year ago stating that this is a window of 
vulnerability, I think confirming what we have seen with 
history and past attacks.
    As with many crimes, an act of terrorism often results from 
the confluence of the aggressor's motivations, means, and 
opportunity. Many national and homeland security observers 
suggest that al-Qaeda and other international and domestic 
terrorist groups maintain the desire to attack U.S. interests. 
The means or the capabilities of the enemies of our Nation are 
subject to a great deal of debate within the government and 
outside the government. However, when one looks at the 
possibility of an attack occurring during the Presidential 
transition period, combined with the suspected need for al-
Qaeda to prove its continuing viability as an organization, the 
enemy may see the upcoming transfer of power too enticing to 
resist when considering whether to attack U.S. interests in the 
homeland or abroad.
    A piece that I added as of yesterday--this wasn't in the 
original submission that I provided your staff last week--some 
national security observers suggest that the attacks that took 
place in Yemen yesterday may have been undertaken with the 
desire to seize the U.S. embassy, thus creating a protracted 
situation that could influence the upcoming election. So there 
may have been a cause to that. Whether this act was designed 
for that purpose or for some other objective, many national 
security observers suggest that al-Qaeda-supported statements 
or actions may increase through the transition period.
    I will now briefly touch on areas that Congress can provide 
assistance to the transition activity. While implementation 
activities of the Presidential transition process are primarily 
the responsibility of the Executive Branch, as we have 
discussed, there are a number of things that Congress may 
choose to do to support the current and incoming 
Administration.
    One, as I believe Ms. Duke discussed, is providing the name 
of agency leaders to the Congress of who is going to have 
decisionmaking authority during the transition; providing 
briefings to the Congress regarding possible risks to the 
Presidential transition process; and, of course, providing 
information about the current status of transition activities.
    One item of interest that I think we are all aware is 
pursuant to a provision in the implementation recommendations 
of the 9/11 Commission Act of 2007, the Department of Homeland 
Security is required to develop a transition and succession 
plan to be presented to the incoming Secretary. The deadline 
for this plan to be submitted to Congress is December 1.
    Next, I will briefly touch on Congressional support for the 
incoming Administration. The Congress may wish to prioritize 
hearings, so we talked about the need for the incoming 
Administration to identify nominees. Congress may wish to 
prioritize the nominees based on national security and homeland 
security responsibilities. And, of course, Congress would want 
to work with the new Administration to understand its national 
security priorities, as that may have short-term policy and 
budgetary implications.
    Other activities that I will briefly touch on, if Congress 
could consider holding a special session of Congress after the 
election to ascertain what the outgoing and incoming 
Administrations have accomplished, and, of course, Congress may 
wish to quickly assign new and existing Members of Congress to 
committees that focus on national security.
    In conclusion, whether the enemies of the United States 
choose to undertake action counter to national security 
interests or the new President experiences a peaceful period 
during the transition, the new Administration's recognition and 
response to the Nation's security challenges will depend 
heavily on the preparation activities that take place between 
now and the inauguration.
    Thank you for convening this important hearing and I would 
be happy to answer any questions you may have,.
    Senator Akaka. Thank you very much, Mr. Rollins.
    Ms. Duke, the NAPA report highlights troubling problems 
with high executive turnover and vacancies at DHS. I am going 
to ask a series of questions about those issues. The report 
revealed that DHS has had the highest turnover of career 
executives of any cabinet agency over the past several years. 
This has contributed to high executive vacancy rates. In 
particular, the executive vacancy rates at the National 
Protection and Programs Directorate in the Office of General 
Counsel are extremely high. What do you attribute this problem 
to, and what are you doing to address it?
    Ms. Duke. OK. Thank you, Mr. Chairman. Since the NAPA 
report--or even before, but there are results since the NAPA 
report, I am, with the Deputy Secretary, managing biweekly the 
SES vacancies and announcements and filling of the key 
positions. We have been able to reduce our vacancy rate from 
about 20 percent at the time of the NAPA report to about 13 
percent now. We have about another 35 selections pending, so 
with that--it should be completed by the end of this month--we 
will have our vacancy rate under 10 percent for the first time. 
We are going to start tracking the career and the political 
separately now because we think as politicals exit, we want to 
make sure we are keeping the career because that is a combined 
number of all our senior executives.
    What we have done is, one, manage it and bring attention to 
it. The second thing we have done is NPPD, one of their unique 
challenges is they have grown so big so quickly. They had 
several hundred positions to fill this year. So we have 
separated their staffing off. They were overwhelming the 
system, and so all of the DHS hiring was minuscule. It was less 
than half of the--it was not even equal to NPPDs. So we are 
managing NPPD's hiring separately, and currently, NPPD's 
vacancy rate at the senior executive is down to about 34 
percent, not what it needs to be certainly, but we are managing 
that. So I think that is unique to NPPD and the fact that with 
the reorganization of DHS, they just grew and have so many new 
positions. So we are going to continue to watch this.
    We do have all the key number twos in place other than my 
deputy. The Deputy Under Secretary for Management is under 
recruitment. But all the other key deputies that we talked 
about, having a career deputy for all the under secretaries, 
that is in place.
    Senator Akaka. Thank you.
    Mr. Chellino, NAPA took an in-depth look at DHS's human 
capital challenges for your report. Did that work provide 
insight into how DHS could address high turnover and vacancies 
among career executives?
    Mr. Chellino. Yes and no, Senator. The NAPA report 
identified the number of vacancies. Oftentimes, they have a 76 
percent executive transition turnover in their positions. The 
NAPA report looked at why these people left. A lot of them were 
at the end of their career when they switched into DHS. DHS had 
a major reorganization in 2005, brought together 22 agencies; 
highly centralized in 2003. In 2005, they became completely 
decentralized and became seven core component elements. So I 
think there probably were some frustrations with some career 
people that went into DHS, and as a result of that, they 
resulted having the highest turnover in executive positions in 
the government, including both political and career.
    Now, if you look at political, the average political 
employee in the Federal Government today is in place for 24 
months. While our report said that DHS did very well with 
political appointees in terms of their numbers and percentage, 
the panel felt that if DHS, as it grows as an agency, can 
continue to reduce those political appointments, it is going to 
be a lot better for the experience level, the credibility 
level. You don't want people coming into a Nuclear Power 
Detection Office in DHS and learning a job for 2 years and then 
leaving.
    These are positions, not unlike the CIA or the FBI or DEA 
or Coast Guard or Secret Service, where those agencies have 
very few political appointees and the theme is to get people in 
these offices where they are going to stay for a full career. 
So while DHS does very well with political positions, we would 
recommend as they grow as an agency, they continue to reduce 
those slots and make them career experienced people.
    Senator Akaka. Ms. Duke, according to the NAPA report, FEMA 
had an executive vacancy rate of 25 percent, the highest of any 
of DHS's operating components. Additionally, more than one-
third of FEMA executives were political appointees. Most of 
these were Senior Executive Service positions that could be 
filled with career employees. I am concerned that there will be 
a tremendous leadership vacuum at FEMA during the transition 
that could hinder the response to any emergency. What is DHS 
doing to ensure that there are not any gaps in emergency 
response during the transition?
    Ms. Duke. Well, what we are doing in terms of leadership, 
FEMA has brought its vacancy rate down to 15 percent, so it is 
making progress, along with the other parts of DHS. What we 
have done for FEMA because as you know, Mr. Chairman, both the 
Director and Deputy are political at this time, is we have done 
a waiver to the succession order and Nancy Ward, who is the 
FEMA Region 9 Director, is going to be the Acting Director of 
FEMA when the two top politicals resign. So that is going to 
prevent kind of a bumping of FEMA people over time.
    So what will happen is when the Director and Deputy resign, 
since they are both politicals, Ms. Ward will become the Acting 
Director of FEMA so that we can keep the continuity of 
leadership. To make her ready for that, she is coming to 
Washington, DC on October 6 and will be in the training mode 
with Chief Paulison and Deputy Johnson to make sure she is 
ready.
    Additionally, we are working on the FEMA regional 
administrators. All 10 were political originally, and through 
attrition, three so far are now career filling those rregional 
administrator positions.
    Senator Akaka. Thank you. Senator Voinovich.
    Senator Voinovich. One of the questions I asked Mr. Johnson 
last week was, is there a transition manual that you have in 
place that is pretty comprehensive that you could give 
representatives of the Presidential campaigns?
    Ms. Duke. Yes. We have an outline of a Presidential 
briefing book which we are putting together and that will have 
a full overview of DHS. And I think that would be the most to 
what you are talking about in terms of having something for the 
next Administration.
    We also have a manual for our outgoing politicals in terms 
of their responsibility and another manual for the incoming 
political appointees in terms of how to be a good political 
appointee in the Federal Government, some of the management 
pieces, the ethics and the responsibilities and those types of 
things. But our briefing book would be the closest, I think, to 
what you are talking about, Senator.
    Senator Voinovich. To your knowledge, have both the 
campaigns put people in place that are interfacing with you 
currently?
    Ms. Duke. We have not been contacted by either campaign at 
this time.
    Senator Voinovich. When would you suggest that they do 
that?
    Ms. Duke. We are poised and ready. And additionally, I 
might point out that Ms. Lovelace, Gail Lovelace, who you met 
with last week, and Mr. Johnson, have put together a Federal 
panel. We are in contact with her because she is working with 
the campaigns right now and she knows that we are available and 
ready to appropriately work with the campaigns. But we do think 
we have an important mission and we do not want to lose the 
mission continuity because of the Presidential transition.
    Senator Voinovich. Mr. Chellino.
    Mr. Chellino. Sir, along those lines with this issue--we 
spoke to DHS about this yesterday and about wondering why the 
transition teams haven't been engaged to date. Our 13th and 
14th recommendations were that after the conventions and prior 
to the election, that the transition teams be contacted and 
that the initial paperwork, which as you know is very lengthy 
and very time consuming, be completed and started and at least 
submitted either through the White House or through the FBI, 
and that the initial clearances, the dates of birth, the Social 
Security numbers be given so that preliminary--both campaigns 
are already talking about this in our report so that we don't 
lose time waiting for the elections to come around. There seems 
to be an issue as to who is supposed to be doing the contacting 
and when it is going to be done.
    Senator Voinovich. How about Senator Akaka and Senator 
Voinovich sending a letter to the campaigns saying that we have 
had these hearings. To our knowledge, no one has been 
appointed----
    Mr. Chellino. I would welcome that.
    Senator Voinovich. The sooner you do it, the better off we 
are going to be, particularly in this area of the Department of 
Homeland Security, because of its critical nature.
    Mr. Chellino. Particularly in this area, and I would 
wholeheartedly support that recommendation immediately.
    Senator Voinovich. Mr. Rollins.
    Mr. Rollins. Sir, I would just offer that according to 
press reports, both campaigns have chosen, nominally chosen 
transition leaders, so that is one venue that the Department 
could reach out to these people. And also, both campaigns have 
senior individuals that have been designated Homeland Security 
representatives that have been out on the speaking circuit and 
meeting with others. So that would be another way that the 
Department could possibly get an opening into the----
    Senator Voinovich. Ms. McGinnis.
    Ms. McGinnis. Yes. I would say that it would be a great 
idea for you to reach to them because there is this sort of 
funny dance that goes on at this time of year where no one 
wants to seem to be presumptuous, measuring the drapes and 
getting ready with their names and nominees. So I think that 
the transition planning in the campaigns is behind what has 
taken place in the past, and given the vulnerabilities now, I 
think that is a little troubling because the authority to go 
ahead and send these names up literally now should be taken 
advantage of and they need to be completely aware of what they 
can do. They need to be briefed and encouraged.
    When you asked about a transition manual, it would be 
wonderful if we could figure out how to create something based 
on best practices in the past and challenges in the future.
    Senator Voinovich. Senator Akaka knows this. I did that. 
That was one of the most important pieces of work I did when I 
was going out as Mayor of Cleveland and as governor. I really 
felt an obligation to do everything I could to make sure that 
there was a smooth transition, that we laid it out for the next 
Administration so they knew some of the things they would have 
to do and some of the problems that they would be confronted 
with almost immediately.
    Mr. Chellino.
    Mr. Chellino. Senator, yes. Continuing with that 
discussion, I was particularly dismayed in the Government 
Executive magazine that came out, and I happened to listen to 
your interview with Clay Johnson last week. But he went on 
record saying the White House Presidential Personnel Office is 
developing a road map that the new Administration can follow to 
have 100 appointees confirmed by April 1 and 400 by August 1, 
and I find that highly unacceptable. We have 5,000 political 
appointees that will be coming in. Twenty-two-hundred of them 
are going to be executive level, and you are talking almost a 
year to get these people confirmed. We are literally wasting 
time right now as we speak.
    Ms. McGinnis. And that is where the capacity, increasing 
the investigative capacity, could make a big difference. But 
this has to be a concerted effort.
    Senator Akaka. As you recall on that issue, Mr. Chellino, 
Mr. Johnson said that up to the present time, past 
Administrations have been able to confirm just 25 by April 1. 
And so 100 would be three times as many as in the past. But we 
need even more than that.
    Senator Voinovich. Have they identified the critical 
positions? You said 100 critical by April, 400 by August. Ms. 
Duke, have you let them know--do you have the list of what are 
the critical positions so that you can share them with----
    Ms. Duke. We have our list of critical positions. 
Additionally, I would like to note that I did learn from Ms. 
Lovelace that the campaigns have requested security clearances 
for about 100 people and they worked directly with the FBI. I 
do not know, though, if any of those are to work on homeland 
security issues. But there is apparently some, in the last week 
or so, work on getting names for security clearances.
    Senator Voinovich. Ms. McGinnis had a suggestion. I 
understand that the Office of Personnel Management now is 
whipping people through, doing a much better job, with the 
security clearance investigations. What do you think of the 
idea of maybe increasing the number of folks that you have got 
so that when these come in, you can look them over in terms of 
your security concerns?
    Ms. Duke. I think we are doing that and we are poised. We 
have about 200 political appointees in DHS and we will have the 
capacity for both the clearances and the suitability for those 
potential employees.
    Senator Voinovich. I have used my time up, Senator Akaka. 
Why don't you go ahead.
    Senator Akaka. We will have a second round.
    Senator Voinovich. OK.
    Senator Akaka. Mr. Chellino, you testified that DHS has 
partially or fully completed 10 of the first 12 recommendations 
in the NAPA report. As you mentioned earlier, you sent updated 
testimony today. The earlier version of your testimony that we 
received 2 days ago stated that DHS had partially or fully 
completed seven of the first 12 recommendations. What new 
information did you receive about DHS's progress on the three 
recommendations that you have updated?
    Mr. Chellino. Yes, Senator. That was as a result of our 
meeting yesterday with Admiral Acton. There were four of us 
from NAPA that were present at that meeting, and we left, 
walked away from that meeting very impressed at the focus, what 
they had accomplished, who they had contacted in terms of 
transition training, in terms of contacting the National Guard, 
in terms of contacting NORTHCOM, FAA, Department of State. They 
had a litany of who they are working with and reaching out to 
existing ongoing government agencies that already have 
significant training that they can joint venture with and 
thoroughly impressed us.
    The only two areas that were left vacant were the 
distribution of the SES's, and they are doing a comprehensive 
review of the existing SES's--I think it is going to be 
completed in December--to see whether or not they want to 
reallocate them more to immigration and the border agencies. 
Keep in mind, Border Patrol, I think, increased 5,000 people in 
the last couple of years. So those--proportionately, the border 
agencies, the three border agencies, have not kept pace with 
the degrees of SESes that the other agencies have.
    So as a result of that meeting yesterday, those three more 
recommendations were updated and we are very pleased. As you 
kick into the next cycle, which will end November 4, you get 
into these issues of pre-clearing and getting the security 
clearances ready for the transition teams, whomever they want 
to name, and that is where we suspect there is going to be a 
problem.
    Senator Akaka. Ms. Duke, as I stated earlier, I am pleased 
that DHS increasingly is placing career civil servants in 
positions of authority. However, as the end of the 
Administration draws closer, critics have voiced concern that 
DHS is filling positions that previously were filled by 
political appointees with career employees as a way of 
extending this Administration's influence into the next 
Administration. What are you doing to ensure that career hiring 
decisions are made exclusively based on the qualifications of 
the candidates throughout the Department?
    Ms. Duke. All our senior executive positions, of which a 
deputy-type position would likely be a senior executive, are 
publicly advertised, posted on the Federal website, USAJobs, 
and competitively solicited. Once we get in the applications, 
we go through the standard human resources process, and then 
every SES selection at headquarters and the majority of 
significant ones in the components are reviewed by an Executive 
Resources Board chaired by the Deputy Secretary with about six 
members, and we review the senior executive selections to 
ensure it was truly merit promotion-based.
    Also, right now, if any new SES selection would go to the 
Office of Management and Budget for review of SES peers on the 
Qualification Review Board. If the candidate was a previous 
political appointee, it goes through another review to ensure 
that merit--by Office of Personnel Management (OPM)--to make 
sure that DHS properly followed merit promotion principles. So 
there are several steps of review in filling these.
    Most of our deputy positions are by long-time career civil 
servants that have been in the Federal system and really are 
truly there for the stability of that specific functional area 
in DHS.
    Senator Akaka. Thank you.
    Ms. McGinnis, in past Presidential transitions, lack of 
mutual trust between members of the incoming and outgoing 
Administrations has hindered sharing of needed information. The 
Council for Excellence in Government has worked on new 
appointee training. Do you have thoughts on building trust and 
encouraging full and open communication among current and 
incoming Administration officials?
    Ms. McGinnis. That is a very tough question as the 
campaigns heat up and become more and more partisan. But I 
think that on issues of national security and homeland 
security, which should transcend politics, there is an 
opportunity to establish some practices and sharing of 
information, and this transition could lay the groundwork for 
that in terms of being sure that briefings are taking place, 
that the security clearances are being handled for both 
campaigns, and I think that the tenor in the Congress makes a 
lot of difference.
    The Congressional leadership can set the right tone, and in 
fact, as I suggested before, if some steps could be taken in 
the Senate on a bipartisan basis to assure that the 
confirmations actually come to a vote within a reasonable and 
short period of time, and I think 30 days is reasonable. It was 
mentioned in the Intelligence Reform and Terrorism Prevention 
Act. And it would be wonderful to have some sort of resolution 
or commitment from the leadership as an example to show that 
trust.
    Senator Akaka. Mr. Rollins.
    Mr. Rollins. Sir, I just offer the obvious. I believe 
oftentimes familiarity breeds trust, even among individuals 
that don't see policy issues similar. So the sooner that we can 
get the incoming national security and homeland security 
leaders engaged with the Department and the Office of the 
Director of National Intelligence and others, I think there 
will be a personal relationship that forms which would help the 
trust and help move some of these issues forward.
    Senator Akaka. Thank you.
    Ms. Duke, is DHS taking any steps to ensure that DHS 
officials will provide a full and open exchange of information 
with the incoming Administration?
    Ms. Duke. Yes. We have an outline of both our transition 
plan and our briefing book that is comprehensive, and if this 
Subcommittee doesn't have it yet, I would be pleased to share 
it with you. I think that the fact that my office has the lead 
for this, you have my personal and professional commitment, and 
I think that having a Coast Guard officer lead it shows--is a 
neutral statement on our part.
    As a political appointee, I do serve the President, but I 
think each one of us in DHS is dedicated to the homeland 
security. We work there because we think that is an important 
mission. I think that will transcend any issues, and much of 
what we are doing in transition really is policy neutral, as I 
think Ms. McGinnis said earlier, just building a strong basis 
so we are ready to transition. But I give you my personal word 
on that.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Thank you.
    Under Secretary Duke, as you know, we have been following 
the Department's efforts to establish a common set of 
performance metrics, and I know you have got your hands full, 
but I am hoping that Mr. Schneider is going to deliver the 
agreed-upon metrics by October, which is around the corner----
    Ms. Duke. Right.
    Senator Voinovich [continuing]. Because we have worked very 
hard on it, and as you know, or maybe you don't know, we have 
had this battle going back and forth as to how the Department 
is to be judged in terms of whether they are continuing on 
their transformation. I don't want to see our effort disappear, 
and by having those metrics and agreement, next year, 6 months 
out, we can sit down with the folks and just say, here is what 
the metrics are. How are you doing? So we can continue on this 
transformation because I really believe that if we don't do 
that, we are never going to get this Department shaped up. This 
is a gigantic management challenge and one that many of us look 
back on and say, maybe we did it the wrong way, or at least I 
thought we did it the wrong way, but that is neither here nor 
there. Anyhow, it is done and so we have got to move forward 
with it.
    The other thing I would be interested in is your ideas on 
some suggestions, for example, some legislation dealing with 
moving these appointees through committees. There are some 
reasons we just don't get it done, sometimes in regard to a 
legitimate complaint, but we are going to be sending out a kind 
of a directive to all of the committees saying these are the 
kinds of things you should be looking for the nominees for 
these key positions, a kind of a job description. But there has 
got to be other ways that we can, as you suggest, Ms. McGinnis, 
to move nominations along so that we aren't the problem. And so 
often, we are the problem.
    Mr. Rollins. Senator, I think that is a very good question. 
I think you answered the issue in the question, is looking at 
the job description, if you will, the job responsibility of the 
nominees. Look to see who has significant policy and resource 
making decision in the national security and homeland security 
environment and then possibly prioritizing those individuals 
for confirmation prior to others.
    Senator Voinovich. Yes. And, probably another good idea 
might be to send that kind of criteria off--I think we did, in 
the Bush Administration, I think we sent it off to the 
campaigns, or after the election, saying that these are the 
kind of qualifications that they should be looking at. So you 
have got the administrative branch that has it and the 
Legislative Branch.
    And this concept of getting people on board and thinking 
about them in the key positions early is a great idea because 
then you start to--I mean, I have to tell you, I ran for 
governor in 1990 and I had somebody who was out working on the 
campaign but their main responsibility was to look at people 
that would be on screening committees for key positions in the 
Administration, asking were there folks out there that looked 
like they might be good candidates. In other words, we were 
already thinking about if we won the election, how we could go 
to town as soon as possible on getting some of this stuff done.
    So anything that we can do, our job, I mean, you can't 
control what other people do, but certainly we can do our 
share, our part.
    Ms. McGinnis. The Council over the years has produced 
something called our Prune Book. I don't know if you are 
familiar with it, but you are familiar with the Plum Book, 
which is the list of political appointees. We take advantage of 
our members who have experience in government and put together 
a list of the top critical management positions and then do 
profiles and qualifications. So we are working hard on that 
now, trying to do it in a priority fashion, and we worked with 
GAO last time to produce those management qualifications that 
you are talking about.
    A couple of other suggestions, the committees all have 
different questions and questionnaires for appointees, and, of 
course, they may have different substantive questions. But to 
the extent that could be standardized or could be done in a way 
that complements the questions that have already been answered 
in the Executive Branch clearing process, that would streamline 
the process.
    And then again, you are leaders and you work with your 
leaders, but it would be--I mean, could there be--I guess I am 
asking you--a way to establish a time frame as suggested by the 
9/11 Commission, by the Intelligence Reform and Terrorism 
Prevention Act, of getting these people considered and to a 
vote within 30 days?
    Senator Voinovich. Well, I think certainly Senator Akaka 
and I could work on that, to try and influence our respective 
parties and our leadership to do that. I will say this, that we 
tried to limit or to reduce the number of political 
appointees----
    Ms. McGinnis. Yes.
    Senator Voinovich [continuing]. And ran into a storm 
because so many of the committees were jealous of having the 
jurisdiction. They wanted it to be a political appointee so 
they could get themselves into the act. And I know I am going 
to take--it is not going to help this Administration--another 
stab at leadership to see if we can't get them to fulfill the 
recommendations of the 9/11 Commission.
    Ms. McGinnis. Right.
    Senator Voinovich. The other point is the point that Mr. 
Chellino made, and that is we just have to look at some of 
these things from a practical point of view about who should be 
a political appointee and who shouldn't be.
    Ms. Duke. And if I could add, Senator, in that regard, we 
do agree with your proposed--this Subcommittee's proposed 2816. 
That won't solve the whole problem, but it will help in one 
position, we believe.
    Senator Voinovich. I think we have that hotlined. You are 
talking about the CHCO position?
    Ms. Duke. Yes, sir.
    Senator Voinovich. Yes. That is done, I think.
    Ms. Duke. Great.
    Mr. Chellino. Senator, along those lines of thinking 
outside the box, and we have a little back-channel information 
on this, and being so concerned about the confirmation and how 
long it is going to take to get--of the 775 executives in DHS, 
83 of them are political--we have heard that some of them, if 
they were asked to stay through the inauguration, that they 
would be willing to do it. I don't know if that helps the 
problem or not in terms of leaving those experienced people, or 
quite frankly, how DHS feels about it, but that might be a 
temporary hold until we can get these new people on board.
    Senator Voinovich. Yes. I made a note of that. Everybody 
submits their resignation----
    Mr. Chellino. Right.
    Senator Voinovich [continuing]. And that is the end of it 
and they walk out of this place. Some of them want to get out 
of here.
    Mr. Chellino. I understand that. But I have heard that 
some, if they were asked at DHS, would be willing to stay.
    Senator Voinovich. But some of them are in key positions, 
and I think as good citizens and patriotic Americans, if asked 
to stay for a time being until somebody was there in place, it 
might be a good idea.
    The other thing is that having someone that has had the 
experience--of course, I suspect some of them come back 
voluntarily to spend time with a new person to try and help 
them out, but that would be wonderful, if we could do that. 
Another good idea.
    Senator Akaka, I have another meeting that I have to go to. 
I would like to suggest that once this new group is in, that 
maybe you and I sit down with them, the administrative branch, 
and maybe we could get some of the people, Ms. McGinnis----
    Ms. McGinnis. Yes.
    Senator Voinovich [continuing]. That were part of the 
original group that got together and talk about what we have 
accomplished in terms of flexibilities and human capital and 
then identify maybe some other areas where we could be helpful 
to this next Administration so they can get the folks on board 
that they need to get the job done.
    Ms. McGinnis. We would be delighted to help with that.
    Senator Voinovich. Yes. Again, I want to thank the 
witnesses for being here. I am sorry I have to exit.
    Senator Akaka. Thank you very much, Senator Voinovich. Your 
experience as an administrator certainly adds to trying to meet 
these challenges that we are talking about.
    Mr. Rollins, you have researched the national security 
implications of the Presidential transition across the 
government. How do challenges at DHS compare to those at other 
agencies with national and homeland security responsibilities, 
particularly those created since the last Presidential 
transition? And how do you compare the relative risks and the 
amount of progress made so far?
    Mr. Rollins. This is a very good question. I don't know if 
I can offer you a definitive answer. My discussions, my 
research into this shows, ironically enough, that the 
Department of Homeland Security is further ahead in its 
transition planning activities than most other departments and 
agencies with national security or homeland security 
responsibilities.
    The way I look at that is the Department is still young 
enough that it hasn't developed enough bad practices or is not 
complacent in the transition. So this is something new for the 
Department and many of the leaders. I would offer that probably 
in other departments and agencies that have been around a 
while, this is an every 4-year activity, so complacency has set 
in and we will approach this as we did prior to September 11, 
2001. But I think that the Department is doing well.
    My concern is I think the Department is doing extremely 
well internally, but as you offered, Senator, my concern is how 
is it doing with respect to other Federal departments and 
agencies? Are they interacting and working with the Department 
to assist transition efforts? How is the Department working 
with State and local governments? Is that connection being 
made? So I think there is a very good job being done 
internally. I am not quite certain that is the case across the 
Federal Government and certainly not down to the State and 
local level.
    Senator Akaka. Let me then move into the area you just 
mentioned, and I want to pose this question to Mr. Chellino, 
Ms. McGinnis, and Mr. Rollins. Your written testimony, Ms. 
McGinnis, states that Federal officials seldom train and 
exercise with State and local officials or private sector 
leaders. The NAPA report and the Congressional Research Service 
that report Mr. Rollins authored also emphasized the importance 
of training and coordination with State and local officials and 
the private sector.
    I would like to hear more about why you highlighted this 
issue and what more should be done to improve State, local, and 
private sector coordination through the transition. Ms. 
McGinnis.
    Ms. McGinnis. The reason that we consider it to be a risk 
area is because of the nature of the mission, protecting the 
homeland. It cannot be accomplished by one department and it is 
quite complex because it involves every level of government and 
the private sector and the public. So, first of all, it 
presents a huge challenge, and also in our observation and 
experience, the best preparation for an emergency is practice 
or experience.
    We have worked closely with people who are on the front 
lines, particularly at the local level, and we know from that 
experience that while they exercise frequently with State and 
other local governments, the Federal Government is usually not 
involved. In fact, I think the training and exercising 
programs, as they are funded, are really quite separate for 
State and local government and then most of the programs in the 
Federal Government are designed for Federal employees.
    Now, of course, you know that the TOPOFF exercises and the 
National Exercise Program are broader and they are scenario-
based and they are bringing together people from across the 
Federal Government and to some extent State and local people. 
In my view, this needs to be expanded and more emphasis should 
be given to joint exercises and coordinating the exercise 
programs and capacity across government and especially those 
that are federally funded down to the State and local level.
    Senator Akaka. Mr. Chellino.
    Mr. Chellino. Senator, I think in particular with DHS being 
a relatively new agency, the seven core component agencies have 
been there for hundreds of years, and quite frankly, I believe 
FEMA probably does have a good relationship. In the aftermath 
of Hurricane Gustav, FEMA obviously worked very well down in 
New Orleans this time and they couldn't have done that without 
a good working relationship with the State and locals. The 
Immigration Department now has the cross-designation to 
designate local police officers with Federal authority to 
arrest illegal immigrants. The Secret Service, whenever they 
are deployed, they are totally engaged with State and local law 
enforcement officers to protect the President or those that 
they have to protect.
    So I think those things will continue, and clearly the 
State and locals are always screaming, we want more Federal 
involvement, we want more Federal dollars, we want more Federal 
help. That will get better over the years. But I think to the 
degree that DHS has come along and done what they have already 
done, they are making sufficient progress.
    Senator Akaka. Mr. Rollins.
    Mr. Rollins. Sir, I will just offer one group that we 
focused on early in the hearing is the citizenry of the Nation 
here. We have just talked about State and local and the private 
sector. But I see this period of risk, potential vulnerability, 
as a period of opportunity, as well, to engage the citizens of 
this Nation, to inform them that we are going into a heightened 
threat period, to ask for their assistance. We have got a lot 
of activity on the prevention side of homeland security that is 
trying to become more formalized and more routine, the Fusion 
Centers and outreach to State and local police and the homeland 
security advisors. But this is an opportunity to ramp that up, 
if you will, a bit and to involve the citizens, to try to 
envelop them into the entire homeland security environment 
through the vulnerability that this transition period presents 
and then that may help us in the future for safeguarding the 
Nation.
    Senator Akaka. Ms. Duke, what is DHS doing to improve 
coordination with State and local partners and the private 
sector through the transition? Will future exercises include 
these important stakeholders?
    Ms. Duke. Yes, two things. One is we used to think of our 
transition planning as it had three pillars or facets. We, 
about 3 months ago, added a fourth, and that is communications, 
not only with State and local, but with citizens, with other 
Federal agencies. It is important enough to rank its own 
chapter in the transition book.
    On the exercise side, what we have done is we started 
originally with the FEMA exercise program as the basis and had 
some training earlier of DHS employees. So that was the first 
step, and that happened this spring. With the CEG training and 
exercises we are doing, we have added some of the Federal 
agencies. In the first session of it, we had about three other 
Federal agencies participating.
    What Admiral Acton is working on right now in terms of the 
full plan is we have the FEMA exercise program. Northern 
Command has an exercise program and then the National Guard has 
an exercise program that they regularly exercise with State and 
local governments because of their unique mission. So Admiral 
Acton is working with NORTHCOM and the National Guard to 
overlay the exercise programs and have them have exercises that 
have really all three components, the new Northern Command look 
at homeland security, the traditional FEMA, which is, of 
course, disaster focused, and then the National Guard to add 
the State and local government component.
    Senator Akaka. Ms. Duke, many State and local governments 
will be undergoing their own transitions after elections this 
fall. How will DHS ensure that needed connections are made 
between State and local leaders and Federal career executives 
and incoming appointees with changes happening at so many 
different levels?
    Ms. Duke. Well, the part we can do is make sure that our 
new points of contact are known and communicated to the State 
and local governments. So we are working on ensuring that our 
transition plans, our change in personnel is known. We are 
going to the different conferences that State and local 
governments or different emergency response agencies have that 
are talking about transitions. So we are really trying to be 
out there and visible.
    But I think probably one of the most important things we 
can do is make sure they know who is going to be at DHS in key 
positions during the transition because the actual response 
won't change. The exercise and the National Response Framework 
will be the same, whether the incident is in a transition or 
not. It is just knowing the right people to do the coordination 
with, and that is a principal focus.
    Senator Akaka. This is my final question to Ms. Duke. The 
Federal Government now recognizes security clearances across 
departments, but individuals with clearances still need 
suitability reviews before starting new positions. Please 
explain why that is necessary and what, if anything, can be 
done to ensure that the suitability review process does not 
slow the process of getting new appointees on board.
    Ms. Duke. Mr. Chairman, that is an area of extreme interest 
to me. The difference between a clearance, which is a position 
needs to know, have access to classified information, and then 
making sure that individual is able to--doesn't have enough 
risk that they can't have access to the classification. And 
within that, there are specific clearance levels, as you know.
    Suitability is, is a person suitable for employment in the 
Department? It looks at many different facets. It looks at 
debt. It looks at drug use. It looks at does the person 
represent themselves well in public. Could they be an 
appropriate Federal person. So it looks beyond just national 
security risk.
    What we are doing to help the fact that these are two time-
intensive processes is for new employees of DHS that need both 
a suitability and a clearance, we will run those in 
concurrence. So we will do the suitability as the clearance is 
being processed. We won't do them sequentially.
    Also, I just issued a policy that will allow reciprocity 
within DHS. So if you are suitable in one of the components of 
DHS, you will be deemed suitable at headquarters. That is 
something new. It is an initial step, and there is more to go.
    Finally, under the new Executive Order--I know you are 
expecting a report this December--DHS was just added to the 
group that is looking at reciprocity of suitability Federal-
wide. We have been a member for about 2 months and I am 
actively engaged in that. You may know that OMB, DOD, and ODNI 
were the principal players previously and we were added as a 
key stakeholder and we are really looking at how we can, both 
for employees and for contractors, make it so that we are 
managing the risks but making it a better process.
    Senator Akaka. Well, thank you very much.
    I would like to thank each of our witnesses again for your 
testimony. Preparing the Department of Homeland Security for 
the Presidential transition is critically important. We must 
ensure there are no gaps in our homeland security capabilities 
as current Administration appointees leave and new leaders are 
selected and confirmed. I am pleased the Department is taking 
the issue very seriously.
    However, the same management problems that hindered DHS's 
day-to-day operations will make the Presidential transition 
much more challenging. In particular, high existing career 
executive vacancies will make it more difficult to fill the 
shoes of the appointees who leave at the end of this 
Administration. DHS must continue to make progress on its poor 
morale, high turnover, and high vacancy rates. DHS deserves 
credit for its efforts to develop career employees for 
leadership positions and to place more career civil servants in 
positions of authority. This will have long-term benefits for 
the management of the Department and will smooth future 
Presidential transitions. But DHS needs to do even more to 
promote career employees.
    The current Administration, the new President, and the 
Senate will need to work together to make sure key appointees 
are nominated early, granted security clearances quickly, and 
promptly considered and confirmed or rejected by the Senate. 
This Subcommittee will continue to focus on the crucial task of 
keeping the Nation safe through the Presidential transition, 
and Senator Voinovich and I will continue to discuss this 
hearing as well as what we need to do during this period.
    The hearing record will remain open for one week for 
additional statements or questions from other Members.
    This hearing is now adjourned.
    [Whereupon, at 3:38 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 <all>

</pre></body></html>
